ALTSHULER BERZON
JAMES BALTZER
HAMILTON CANDEE

.

EVEH CERVAMTEZ

.

CONNIE K CHAN

.

ATTORNEYS AT LAW
177 POST STREET , SUITE 300
SAN FRANCISCO, CALIFORNIA 94108

BARBARA J CHISHOLM

.

JEFFREY B DEMAIN

JAMES M. FINBERG

.
SCOTT A. KRONLAND

EILEEN B GOLDSMITH

CORINNE JOHNSON

( 415 )

421-7151

FAX ( 415 ) 362-8064
w w w.a l t s h u l e r b e r z o n.c o m

.

FREDH ALTSHULER
FOUNDING PARTNER

PARTNER EMERITUS

.

STEPHEN P BERZON
FOUNDING PARTNER

PARTNER EMERITUS
SPECIAL COUNSEL

.

PETER D NUSSBAUM
PARTNER EMERITUS

ANDREW KUSHNER

.
AMANDA C. LYNCH

DANIELLE E LEONARD

ELIZABETH VISSERS

.

STACEY M LEYTON

.

FELLOW

MATTHEW J MURRAY

.

BRONWEN B O’HERIN
ZOE PALfTZ

.

P CASEY PUTS

.

DANIELT PURTELL

MICHAEL RUBIN

.

STEFANIE L WILSON

June 22, 2021
Scott S. Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, DC 20543
Re: Seidemann v. Professional Staff Congress Local 2334, No. 20-1725
Dear Mr. Harris:
On behalf of all Respondents,1 I respectfully move for a 23-day extension of time, until
August 6, 2021, for Respondents to submit a response to the petition for certiorari in this matter.
This request is being made because Respondents intend to file a joint response, which will
require review by many counsel, and some of the attorneys representing Respondents have
previously scheduled vacations during the time period at issue. Counsel for Petitioners has
confirmed that Petitioners do not oppose the requested extension.
By copy of this letter, I am serving counsel for Petitioners by email and U.S. mail.
Sincerely,

Scott A. Kronland
Counsel for Respondent
National Education Association

Professional Staff Congress, AFT Local 2334; Faculty Association of Suffolk County
Community College; United University Professions, Farmingdale State College Chapter;
National Education Association; American Federation of Teachers; American Federation of
Labor and Congress of Industrial Organizations; American Association of University Professors
Collective Bargaining Congress; and New York State United Teachers.

1

Scott S. Harris, Clerk
United States Supreme Court
Re: Seidemann v. Professional Staff Congress Local 2334, No. 20-1725
June 22, 2021
Page 2

cc:

(by e-mail and U.S. Mail)
John J. Bursch (jbursch@burschlaw.com)
Counsel for Petitioners

(By email)
Michael J. Del Piano (michael.delpiano@nysut.org)
Counsel for Respondents New York State United Teachers, American Federation of
Teachers, Professional Staff Congress, United University Professions and Faculty
Association of Suffolk County Community College
Dina Kolker (dkolker@stroock.com)
Counsel for Respondents New York State United Teachers, American Federation of
Teachers, and Professional Staff Congress
Peter Zwiebach (pzwiebach@pscmail.org)
Counsel for Respondent Professional Staff Congress
Hanan B. Kolko (hkolko@cwsny.com)
Counsel for Respondent Professional Staff Congress
Kent Y. Hirozawa (khirozawa@grmny.com)
Counsel for Respondent American Federation of Labor and Congress of Industrial
Organizations
David M. Slutsky (dslutsky@levyratner.com)
Counsel for Respondent American Association of University Professor Collective
Bargaining Congress

